           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


 THE SOCIAL SECURITY ADMINISTRATION’S
AGENCY-WIDE SUPPORT SERVICES CONTRACT
        WITH LOCKHEED MARTIN


      October 2011   A-14-10-11004




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                          SOCIAL SECURITY
MEMORANDUM

Date:      October 28, 2011                                               Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   The Social Security Administration’s Agency-wide Support Services Contract with
           Lockheed Martin (A-14-10-11004)


           OBJECTIVE
           Our objectives were to (1) ensure the Social Security Administration (SSA) received the
           goods and services for which it contracted; and (2) review the services provided by
           Lockheed Martin Information Technology Commercial Corporation (LM) and the related
           costs charged to the SSA to ensure it adhered to the negotiated contract terms and
           relevant Federal Acquisition Regulation (FAR).

           BACKGROUND
           In November 2004, SSA signed an Agency-wide Support Services Contract (AWSSC)1
           with LM. SSA used the contract to supplement existing staff with individuals who had
           the specialized technical skills to help SSA achieve its strategic goals. The contract
           supplied SSA with 600 to 800 programmers and information technology specialists.
           Under the contract, LM was to provide support in the following six technical areas:

                 1. application design, development, testing, and maintenance;
                 2. database administration, imaging, and document management;
                 3. data administration, programmatic repository, and enterprise architecture;
                 4. software engineering and technology;
                 5. emerging technology applications; and
                 6. software engineering management.




           1
               Contract Number SS00-05-60011.
Page 2 – The Commissioner


The contract was an Indefinite Delivery Indefinite Quantity (IDIQ), 2 Time-and-Materials
(T&M) 3 contract for commercial items. 4 The contract was for 1 year with 6 option
years. 5 At the end of the fourth option year, SSA modified the contract to a firm-fixed-
price contract. 6 The Agency modified the contract to comply with Office of Management
and Budget (OMB) guidance that encouraged Federal agencies to use fixed-price
contracts. 7 LM’s efforts were to be identified and allocated via individual task and work
orders that precisely define the scope, deliverables, and schedule of the work to be
issued. SSA required that Agency senior management review and approve all planned
tasks before LM initiated work. 8

According to SSA’s AWSSC Contract Administration Handbook,9 “…tasks are reviewed
to ensure: (1) consistency with SSA’s strategic plans; (2) justification based on mission
need or economic benefits; (3) accurate specification of the activities, resources, costs,
and schedules needed to achieve stated objectives; and (4) adherence to the scope
and provisions of the contract.”




2
  FAR § 16.501-2(a), states, in part, that “The appropriate type of indefinite-delivery contract may be used
to acquire supplies and/or services when the exact times and/or exact quantities of future deliveries are
not known at the time of contract award.” FAR § 16.501-2(b)(3) states “. . .Indefinite-quantity contracts
limit the Government’s obligation to the minimum quantity specified in the contract.”

3
 FAR, Subpart 16.601(b), states, “. . . A time-and-materials contract provides for acquiring supplies or
services on the basis of (1) Direct labor hours at specified fixed hourly rates that include wages,
overhead, general and administrative expenses, and profit; and (2) Actual cost for materials (except as
provided for in 31.205-26(e) and (f)).”

4
 A commercial item includes any item, other than real property, that is of a type customarily used by the
public or by non-government entities for purposes other than government purposes, and (i) has been
sold, leased or licensed to the general public; or (ii) has been offered for sale, lease, or license to the
general public. FAR § 2.101.
5
  The AWSSC was to expire on September 30, 2011; however, SSA spent all contract funding by the end
of Fiscal Year 2010. SSA pursued an early recompetition to award a new contract before contract
funding was exhausted.
6
 A firm-fixed-price contract provides for a price that is not subject to any adjustment based on the
contractor’s cost experience in performing the contract.
7
  OMB guidance states, “…time-and-materials and labor-hour (T&M/LH) contracts pose special risks of
overspending….T&M/LH contracts pose a risk because they provide no direct incentive to the contractor
for cost control….Accordingly, agencies should begin taking actions to reduce use of these high risk
contracting authorities for new contract actions.” OMB, M-09-25, Improving Government Acquisition, § II.
(July 29, 2009).
8
 SSA, Agency-wide Support Services Contract - Contract Administration Handbook, September 2009,
page 10.
9
    Id.
Page 3 – The Commissioner


The contract ended on September 29, 2010. During the life of the contract, SSA issued
271 task orders 10 totaling approximately $536 million.

                                       LM AWSSC (SS00-05-60011)
Contract                                                             Total       Total   Total Amount
                          Period of Performance
 Year                                                               Hours        FTE 11 (in Thousands)
   1            November 16, 2004 -      September 29, 2005          810,208        564         $48,599
   2            September 30, 2005 -     September 29, 2006        1,603,959        835         $93,800
   3            September 30, 2006 -     September 29, 2007        1,336,561        696         $84,354
   4            September 30, 2007 -     September 29, 2008        1,419,091        806         $97,979
   5            September 30, 2008 -     September 29, 2009        1,594,010        938        $115,285
   6            September 30, 2009 -     September 29, 2010        1,239,411        763         $96,301
 Total                                                             7,703,240      4,602        $536,318

To achieve our audit objectives, we obtained and reviewed the contract, supporting
documents, and applicable Federal laws and regulations. In addition, we selected and
tested 23 task orders. See Appendix B for our scope and methodology and Appendix C
for our sampling methodology.

RESULTS OF REVIEW
Based on our tests, we determined that SSA received the contracted goods and
services and was generally satisfied with LM’s work. Additionally, the related costs LM
charged to SSA generally adhered to the negotiated contract terms and applicable
regulations.

We also found that SSA had implemented controls and practices to help ensure LM
adhered to the contract terms. Based on our review of the contract, it appeared the
contract team, including the contracting officer’s technical representative (COTR), 12
contracting officer (CO), task order manager, and work order manager, worked
cooperatively and demonstrated professionalism and expertise in executing the
contract. We found that the COTR reviewed and certified invoices timely, which in turn,
helped SSA’s Office of Finance comply with the Prompt Payment Act. 13




10
     A task order is issued for services placed against an established contract or with Government sources.
11
  Full-time equivalency (FTE) is defined as one full-time employee working an entire fiscal year with no
period of non-pay status, such as leave without pay, absent without leave, or suspension.
12
  The COTR is an individual designated and authorized in writing by the CO to perform specific technical
or administrative functions.
13
  The Prompt Payment Act, requires that Federal agencies pay their bills timely, pay their interest
penalties when payments are made late, and take discounts only when payments are made by the
discount date. Pub. L. No. 97-177 § 2-3, 96 Stat. 85-87 (1982).
Page 4 – The Commissioner


While we recognize that SSA diligently managed and monitored the contract, we
identified a number of areas where the Agency can improve the administrative oversight
and monitoring of the contract. Specifically, we found that SSA did not

•     always comply with suitability determination 14 policies and procedures;
•     always comply with its systems’ access policies and procedures; or
•     apply Cost Accounting Standards (CAS), as required by the FAR. 15

SSA DID NOT ALWAYS COMPLY WITH SUITABILITY DETERMINATION POLICIES
AND PROCEDURES

During our review of a sample of 45 LM employees and 38 LM subcontractors working
on the contract, we found 3 suitability determination issues.

1. Some contractor personnel were not pre-screened before working on the project.
2. Some suitability determinations were not performed every 5 years.
3. Contractor personnel received suitability determinations under other SSA contracts
   without notifying SSA’s Center for Personnel Security and Project Management
   (CPSPM). 16

According to the contract, contractor personnel are subject to the same personnel
security and suitability requirements as SSA employees. 17 As testing in this area was
conducted to analyze the strength of internal controls, the level of findings indicate
internal controls were not working as intended, and the weaknesses in this area require
SSA management’s attention.




14
  Federal regulation defines the suitability determination as a decision by the Office of Personnel
Management or an agency with delegated authority that a person is suitable or is not suitable for
employment in covered positions in the Government or a specific Federal agency. 5 C.F.R. § 731.101(b).
15
     FAR § 30.101(a).
16
  CPSPM manages SSA’s nationwide programs for personnel security and suitability, national security,
and drug testing for employees and contractors and SSA’s nationwide worker’s compensation program.
17
     AWSSC, § B.10(a)(2)(vi)(C), Personnel Security, page B-46.
Page 5 – The Commissioner


Some Contractor Personnel Were Not Pre-screened Before Working on the Project

We found three LM employees charged hours to the contract before they were pre-
screened or a suitability determination was initiated. 18 We also found two LM
subcontractors in temporary administrative positions who were not submitted for pre-
screening or suitability determinations before working on the contract. Per SSA, these
employees did not have access to sensitive information.

According to the AWSSC Contract Administration Handbook, contractor personnel must
be authorized to enter SSA buildings, receive parking permits, and access SSA
computer systems. This authorization may not be given until a favorable pre-screening
for suitability is completed. This pre-screening authorizes an individual to perform on
the contract pending a final suitability determination. 19 SSA policy states appropriate
background investigations for all SSA appointees will be initiated on the day of, or
before, appointment to Federal service as part of the entrance-on-duty process.
According to SSA policy, investigations for contractors, volunteers, and special program
personnel will be initiated before the assignment and/or access to SSA systems,
information, and facilities is approved. 20 Although these individuals were ultimately
found suitable, CPSPM staff stated that temporary personnel should have been pre-
screened before working on the contract. In addition, CPSPM stated it is responsible
for initiating a background investigation when a contractor submits the appropriate
paperwork. However, CPSPM is not responsible for monitoring contract personnel
working on a contract.

SSA should implement controls to ensure all contractor personnel (including
subcontractors) receive the appropriate pre-screening and suitability determinations
before accessing SSA systems, information, and facilities.

Some Suitability Determinations Were Not Performed Every 5 Years

We found five LM employees and one LM subcontractor who had suitability
determinations that were over 5 years old. According to the contract, “The Government
must clear each contractor employee, other than a guard, for suitability every five years.
The Government must clear each guard every two years.” 21 SSA staff stated that, in
anticipation of SSA’s implementation of the Homeland Security Presidential Directive-12
(HSPD-12), the Agency did not resubmit several contractors for suitability



18
     These three contractors were eventually found suitable to work on the AWSSC.
19
     SSA, AWSSC - Contract Administration Handbook, supra at page 33.
20
  SSA, Information Systems Security Handbook (ISSH), Appendix J: Personnel Security and Suitability
Program.
21
  The original AWSSC C.3(w) Personnel Security Requirements Duration of Suitability Determination,
page C-37.
Page 6 – The Commissioner


determinations at the end of 5 years. 22 Instead of performing suitability determinations
using previous requirements, SSA made a management decision to wait until the
HSPD-12 investigations were performed, accept any risk involved, and not comply with
the contract. Consequently, these LM employees and the LM subcontractor could have
been security risks until they were re-investigated.

According to CPSPM staff, under HSPD-12 requirements, the initial suitability
determinations for employees and contractors are considered valid indefinitely. CPSPM
staff further stated SSA should have modified the contracts that included a clause about
5-year re-investigations to incorporate the new HSPD-12 requirements.

In December 2008, the Agency modified the contract to include HSPD-12 requirements
and remove the statement that contractor employees must be cleared every 5 years
and guards every 2 years. Although the Agency modified the contract, SSA had not
complied with the original contract before the modification. As of the contract
modification date, SSA had not performed re-investigations for over 8 years, accepting
the risk that the five LM employees and one LM subcontractor became unsuitable since
their last suitability determinations.

In its HSPD-12 implementation guide, OMB stated that the use of the standard
identification does not replace the Agency’s responsibility to follow existing laws,
including laws and policies governing personnel security, acquisition, and information
technology security. 23

The Code of Federal Regulations (C.F.R.) Title 5, § 731.106 (d) states that agencies
may require incumbents of certain public trust positions to undergo periodic re-
investigations. Executive Order 13488 24 requires a re-investigation of individuals in
positions of public trust, including employees and contractor employees, to ensure they
remain suitable for continued employment.

Since SSA processes significant amounts of sensitive information, we believe the
Agency should be a leader in ensuring the security of sensitive information; therefore,
SSA should have performed the re-investigations as originally required and not
accepted the risk. We recommend SSA continue to perform periodic suitability
determinations, as appropriate.
22
  HSPD-12 directs the implementation of a new standardized badging process, designed to enhance
security, reduce identity fraud, and protect the personal privacy of those issued Government identification.
SSA began implementing the HSPD-12 program Agency-wide on October 27, 2005.
23
  OMB,M-05-24, Implementation of Homeland Security Presidential Directive (HSPD)
12 – Policy for a Common Identification Standard for Federal Employees and Contractors, page 1,
August 5, 2005.
24
   The Order, issued January 16, 2009, and published in the Federal Register on January 22, 2009,
states that “This order is effective upon issuance and is applicable to individuals newly appointed to
excepted service positions or hired as contractor employees beginning 90 days from the effective date of
this order.” 74 Fed. Reg. 4111 (January 22, 2009).
Page 7 – The Commissioner


The following chart details the time lapse between the initial suitability determination
and the modification date.

                        Suitability         Contract        Time Between Determination
                       Determination      Modification            and Modification
     Contractor 1       12/17/2001         12/19/2008                   7 years
     Contractor 2       05/29/2001         12/19/2008             7 years, 7 months
     Contractor 3       03/18/1999         12/19/2008             9 years, 9 months
     Contractor 4       05/11/1999         12/19/2008             9 years, 7 months
     Contractor 5       05/25/2001         12/19/2008             7 years, 7 months
     Subcontractor 1    04/02/1999         12/19/2008       Re-investigation Not Completed

Contractor Personnel Received Suitability Determinations Under Other SSA Contracts
Without Notifying SSA’s CPSPM

We found two LM employees and one LM subcontractor who worked on the contract
and received suitability determinations under other SSA contracts without notifying
SSA’s CPSPM. In a previous audit, 25 we identified a similar issue where individuals
received a suitability determination under one SSA contract then transferred to another
SSA contract. We recommended SSA ensure that contractor personnel (including
subcontractors) working on that specific contract receive the appropriate suitability
determinations even if the individuals were previously cleared under another contract.
SSA agreed with our recommendation.

When contracts have different suitability requirements, there is a risk that individuals
assigned to one contract may not have the proper suitability determination to work
under another contract. For example, some contractors may only need physical access
to SSA facilities, and some contractors may need both physical access and access to
sensitive information. CPSPM personnel indicated they should have been notified when
these contractors began working on the contract.

Based on our review of individuals receiving suitability determinations under this
contract, it appears that SSA is still having difficulty coordinating the suitability
determinations when individuals were previously cleared under another SSA contract.

To address this issue, we reiterate our prior recommendation that SSA should ensure
its contractor personnel (including subcontractors) receive the appropriate suitability
determinations even for individuals previously cleared under another contract.




25
  SSA OIG, The Social Security Administration’s Oversight of MDRC Contract No. SS00-06-60075
(A-15-08-18010), December 22, 2008.
Page 8 – The Commissioner


SSA DID NOT ALWAYS COMPLY WITH ITS SYSTEMS’ ACCESS POLICIES AND
PROCEDURES

To evaluate SSA’s controls, we reviewed 45 individuals employed under this contract.
We found that SSA did not terminate the systems’ access for four LM subcontractors
timely. We believe the level of findings indicate internal controls are not working as
intended. Therefore, weaknesses in this area require management’s attention. See
table below.

                          Terminated or Separated LM Subcontractors
                                                                               Number of Days
     Terminated/Separated             Date of          Date Systems’ Access
                                                                                Before Access
      LM Subcontractors              Separation          Was Terminated
                                                                               Was Terminated
                 1                    10/02/2009             10/07/2009               5
                 2                    01/26/2007             11/02/2007               280
                 3                    12/27/2006             01/05/2007               9
                 4                    09/23/2005             09/05/2006               347

The following represents the distribution of the 45 individuals from our sample that
separated or terminated under the contract.

 Contract Year                      1          2         3             4   5      6       Total
 Number of separated
 employees                          7         13         5             8   7      5         45

The ISSH states that security officers shall immediately deactivate the personal
identification numbers of employees and contractors who are inactive or have left the
Agency. 26 If SSA does not disable their systems’ access, these contractors could have
unauthorized access to SSA resources and data.

We recommend that SSA terminate contractor personnel’s (including subcontractors)
systems’ access timely and in accordance with policies and procedures. After the
conclusion of our fieldwork, we provided the Agency with the results of our testing. The
Agency stated it had implemented corrective measures to ensure all departure notices
are processed and accesses to systems terminated timely. Additionally, the Agency
began using a checklist to ensure actions are completed when a contractor or
subcontractor leaves the Agency.




26
     ISSH, Chapter 2, Systems Access Policy, Sections 2.2 and 2.3.1.
Page 9 – The Commissioner


SSA DID NOT APPLY CAS, AS REQUIRED BY THE FAR

We found that SSA did not require that LM follow CAS, as required by the FAR. The
FAR restates the requirement set forth in Public Law 100-679 that certain contractors
and subcontractors comply with CAS and submit a CAS disclosure statement for their
cost accounting practices. 27 The C.F.R. provides a list of contract types that are exempt
from all CAS requirements.28 As an IDIQ and T&M contract, the contract was not
exempt from the CAS requirement when it was awarded in September 2005.

The CAS disclosure statement would provide SSA a better understanding of the cost
accounting practices the contractor intended to use, distinguish direct from indirect
costs, and identify the contractor’s basis for allocating indirect costs to the contract.
Because SSA did not require that LM comply with CAS, we were unable to determine
whether LM properly allocated and charged costs to SSA. The Agency did not provide
us a CAS disclosure statement until March 7, 2011. However, the CAS statement was
dated June 18, 2007—2.5 years after the contract was awarded.

The FAR indicates that the CO shall not award a CAS-covered contract until the
cognizant Federal agency official29 has made a written determination that a required
disclosure statement is adequate unless, in order to protect the Government’s interests,
the agency head, on a delegable basis, authorizes award without obtaining
submission. 30 SSA staff stated that, at the time of award, there was confusion
Government-wide regarding commercial T&M contracts and CAS applicability. SSA
believed that the LM contract was exempt from CAS because the contract was for the
acquisition of commercial items. However, based on our review and understanding of
the FAR, we believe T&M contracts for the acquisition of commercial items were not
exempt from CAS requirements until October 1, 2007.

On March 17, 2011, we briefed SSA management, and they agreed with the finding.
SSA management acknowledged that they created this commercial T&M contract as an
authorized one-time deviation from the FAR with the expectation that the FAR would
change. The FAR did change in 2007 and specifically exempted T&M commercial
contracts from CAS. Because SSA believed the FAR was going to change, and the
CAS board had indicated it was not appropriate to apply CAS to commercial item
contracts, the CO believed CAS did not apply to this hybrid T&M/labor hours
commercial contract.




27
     FAR § 30.101(a).
28
     48 C.F.R. § 9903.201-1(b).
29
  Cognizant Federal agency official is the CO assigned by the Defense Contract Audit Agency to
administer the CAS for the contract.
30
     FAR § 30.202-6(b).
Page 10 – The Commissioner


The CO, in accordance with the evaluation criteria set forth in the request for proposal,
was also more concerned with obtaining a vendor with superior technical merit than with
making an award at the lowest overall price/cost to the Government.
We recommend that SSA ensure compliance with CAS and include CAS clauses in
future contracts, as appropriate.

CONCLUSION AND RECOMMENDATIONS
We found that SSA received the contracted goods and services and was generally
satisfied with LM’s work. Additionally, the related costs LM charged to SSA generally
adhered to the negotiated contract terms and applicable regulations. We also found
that SSA has implemented controls and practices to help ensure LM adhered to the
contract terms. While we recognize SSA diligently managed and monitored the
contract, we identified a number of areas where the Agency can improve. We
recommend SSA:

1. Implement controls to ensure all contractor personnel (including subcontractors)
   receive the appropriate pre-screening and suitability determinations before
   accessing SSA systems, information, or facilities.

2. Continue performing periodic suitability determinations, as appropriate.

3. Ensure contractor personnel (including subcontractors) receive the appropriate
   suitability determinations even for individuals previously cleared under another
   contract.

4. Terminate contractor personnel (including subcontractors) systems’ access timely
   and in accordance with policies and procedures.

5. Ensure compliance with CAS and include CAS clauses in future contracts, as
   appropriate.

AGENCY COMMENTS
SSA agreed with all our recommendations. The Agency’s comments are included in
Appendix E.

OTHER MATTERS
During our review, we indentified an additional area related to the contract’s
administrative oversight and monitoring that we would like to bring to the Agency’s
attention.

SSA paid the hourly rates for all labor performed on the contract that met the contract’s
labor category qualifications. The contract had 36 labor categories with position
descriptions and corresponding hourly labor rates. LM was required to submit names
Page 11 – The Commissioner


and resumes to the COTR for review and approval when it proposed new candidates to
work on the contract. For COTR approval, a candidate must have met minimum
requirements for the proposed labor category.

We selected 16 resumes that applied to 15 labor categories. 31 We reviewed the
16 resumes and applicable position descriptions for each contractor’s labor category to
determine whether the LM employees met the qualifications outlined in the position
descriptions and was in accordance with the work requested in the task order.

We found three instances where the documentation provided did not clearly support that
these LM employees met the qualifications based on position descriptions. For
example, we found one Senior Subject Matter Expert who did not appear to meet the
qualifications required for her position. The Senior Subject Matter Expert is to be an
expert in highly specialized functional or technical areas related to application software
design, development, testing, and maintenance support. However, we determined that
the LM employee’s education and experience strictly related to Human Resources.
Although LM billed SSA for a Senior Subject Matter Expert, this employee’s education
and experience best reflected skills and experience of a Principal Administrative
Specialist, resulting in a significant hourly rate variance of $27. We can provide
additional examples upon request.

Although we did not consider this issue a finding, we suggest SSA review its contract
administration and monitoring process to ensure that only individuals who possess the
appropriate skills and experience are approved for a specific labor category. Under the
contract, it was important that contractors and subcontractors were assigned accurate
labor categories to ensure SSA received the service it contracted for, at rates that
coincided with an individual’s qualifications. In these economic times, SSA needs to
ensure it gets the best value for the goods and services provided.




                                                  Patrick P. O’Carroll, Jr.




31
     See Appendix D for all labor categories included in the AWSSC.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Sampling Methodology
APPENDIX D – Agency-wide Support Services Contract Labor Categories
APPENDIX E – Agency Comments
APPENDIX F – OIG Contacts
                                                            Appendix A

Acronyms
 AWSSC     Agency-wide Support Services Contract
 CAS       Cost Accounting Standards
 C.F.R.    Code of Federal Regulations
 CO        Contracting Officer
 COTR      Contracting Officer’s Technical Representative
 CPSPM     Center for Personnel Security and Project Management
 FAR       Federal Acquisition Regulation
 FTE       Full-Time Equivalent
 HSPD–12   Homeland Security Presidential Directive-12
 IDIQ      Indefinite Delivery Indefinite Quantity
 ISSH      Information Systems Security Handbook
 LH        Labor Hours
 LM        Lockheed Martin Technology Commercial Corporation
 OIG       Office of the Inspector General
 OMB       Office of Management and Budget
 SSA       Social Security Administration
 T&M       Time-and-Materials
                                                                                   Appendix B

Scope and Methodology
To accomplish our audit objectives, we

•   Obtained and reviewed the Social Security Administration’s (SSA) Agency-wide
    Support Services Contract (AWSSC) with Lockheed Martin Technology Commercial
    Corporation (LM), Contract No. SS00-05-60011, and 40 of 98 contract modifications.
•   Selected and tested a sample of 23 of 271 task orders issued during the 6 years of
    the contract. See Sampling Methodology in Appendix C. We reviewed
       o associated invoices and supporting documents and
       o associated delivery and performance reports and supporting documents.
•   Selected a sample of 45 LM employees and all 1 38 LM subcontractors and tested
    the associated timesheets, suitability forms, security access, and 16 selected
    resumes with associated labor categories.
•   Reviewed the applicable Federal acquisition regulations and laws.
•   Reviewed SSA’s AWSSC Contract Administration Handbook, September 2009.
•   Contacted or interviewed key SSA and LM management and staff who executed and
    managed the contract, including the following.
      o SSA’s Office of Systems Contracting, Acquisition, Planning, and Programs
          Staff
      o SSA’s Offices of Budget, Finance, and Management; Financial Policy and
          Operations; and Finance
      o SSA’s contracting officer’s technical representative
      o SSA’s contracting officers
      o SSA’s security staff
      o LM’s Business Operations Manager
•   Requested and reviewed documentation of other costs to test SSA’s adherence to
    contract terms.

In addition to the contract-level review, we tested a portion of the contract to determine
how well SSA had executed and managed the contract in cost verification, timeliness,
security and accountability. Our testing focused on the 23 task orders that we selected
for our review. To select these task orders, we first selected all SSA divisions that used
more than $10 million of LM contractor services over the contract life. Then, we
selected the largest task order issued by these divisions. (See Appendix C, Sampling
Methodology.)

1
 During the last reporting period of contract years 3 through 6, 38 subcontractors charged time to the
contract.


                                                  B-1
We determined the computer-processed data were sufficiently reliable for our intended
use. We conducted tests to determine the completeness and accuracy of the data,
which allowed us to assess the reliability of the data and achieve our audit objectives.

We performed our fieldwork at SSA Headquarters in Baltimore, Maryland, from
June 2010 through February 2011. We conducted this audit in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




                                          B-2
                                                                                 Appendix C

Sampling Methodology
The Social Security Administration (SSA) administered its Agency-wide Service Support
Contract with Lockheed Martin Technology Commercial Corporation (LM) by issuing
271 task orders, totaling approximately $536.3 million, for the life of the contract. There
were 49 SSA divisions associated with the 271 task orders for the 6 years of the
contract. For the review of contract deliverables and invoices, we selected 23 of
271 task orders based on following criteria.

•     First, we selected SSA divisions with total task order amounts greater than
      $10 million for the 6 years of the contract. This resulted in 23 SSA divisions
      selected.
•     Then, for each of these divisions, we selected the largest task order initiated during
      the life of the contract.

Our review covered 47 percent of all divisions associated with the contract and
17 percent of the total contract value. In addition, we used other sampling to test the
following areas.

Cost Verification

To determine whether SSA was charged and paid costs according to the contract terms,
we did the following.

•     We randomly selected 45 LM employees and all 38 LM subcontractors who worked
      under the largest task order during the last reporting period of contract years 3
      through 6. We reviewed timesheets and compared them with the actual time
      charged to SSA in the associated invoices. In addition, we determined whether the
      correct labor rates were applied for each of the samples.
•     From the sample above, we reviewed 16 resumes that fell within 15 labor
      categories.1 We selected 1 resume 2 from 14 labor categories and 2 from the
      remaining category. We compared the resumes to the position descriptions for
      which they were billed. We then determined whether the individuals were properly
      assigned to the labor categories for which they were being billed.




1
    We selected the resumes from contract years 5 and 6 of the same sample.
2
 We reviewed two resumes for the Principal Subject Matter Expert. See Appendix D for all labor
categories.


                                                  C-1
•   We selected all invoices for contract years 3 through 6. For costs other than labor,
    we reviewed the monthly invoices and compared them with the contractor terms and
    applicable Federal acquisition regulations to determine whether these costs were
    billed and charged to SSA in compliance with such terms and regulations.

Timeliness

To determine whether contract deliverables and payments were made timely according
to the contract, we

    •   reviewed the invoices associated with the 23 selected task orders to determine
        the timeliness of invoices and payments and
    •   reviewed and compared each of the 23 selected task orders with the
        corresponding Task Order Closeout Report.

Security

To determine whether the LM employees and subcontractors met contract security
requirements, we tested the same sample of 45 LM employees and all 38 LM
subcontractors as described above under Cost Verification and determined whether the
suitability and pre-screening process was completed timely.

In addition, we randomly selected and tested 45 of the 1,582 terminated or separated
LM employees and LM subcontractors to determine whether their access to SSA’s
information systems was removed timely.

Accountability

For all samples reviewed, we also examined whether there was noncompliance with
contract terms by either SSA or LM.




                                          C-2
                                                                           Appendix D

    Agency-wide Support Services Contract
    Labor Categories
Program Director*                                    Principal Administrative Specialist
Senior Project Manager*                              Senior Administrative Specialist*
Project Manager*                                     Administrative Specialist*
Principal Business/Architectural Expert              Associate Administrative Specialist
Business Operations Manager                          Entry Level Administrative Specialist
Principal Computer Systems Analysts/Programmer*      Principal Web Technology Specialist*
Senior Computer Systems Analyst/Programmer*          Senior Web Technology Specialist
Computer Systems Analyst/Programmer*                 Web Technology Specialist
Associate Computer Systems Analyst/Programmer        Associate Web Technology Specialist
Entry Level Computer Systems Analyst/Programmer      Senior Database Management Specialist
Principal Information Technology Specialist*         Database Management Specialist
Senior Information Technology Specialist             Associate Database Management Specialist
Information Technology Specialist                    Enterprise Information Technology Specialist
Associate Information Technology Specialist          Lead Information Technology Specialist*
Entry Level Information Technology Specialist        Enterprise Subject Matter Expert
Principal Subject Matter Expert*                     Lead Subject Matter Expert*
Senior Subject Matter Expert*                        Lead Web Technology Specialist
Subject Matter Expert*                               Principal Database Management Specialist


    * Positions in bold were included in our sample of labor categories compared to
      employee resumes.
                  Appendix E

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      September 28, 2011                                                      Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “The Social Security Administration’s Agency-
           wide Support Services Contract with Lockheed Martin” (A-14-10-11004)--INFORMATION


           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Frances Cord at (410) 966-5787.

           Attachment




                                                          E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “THE SOCIAL SECURITY ADMINISTRATION’S AGENCY-WIDE
SUPPORT SERVICES CONTRACT WITH LOCKHEED MARTIN”
(A-14-10-11004)

COMMENT TO OTHER MATTERS

Page 11, last paragraph reads:

“…we suggest SSA review its contract administration and monitoring process to ensure that only
individuals who possess the appropriate skills and experience are approved for a specific labor
category.”

Comment

We agree. We will place a greater emphasis on the need to document exceptions made to labor
category qualification.

RESPONSE TO RECOMMENDATIONS

Recommendation 1

Implement controls to ensure all contractor personnel (including subcontractors) receive the
appropriate pre-screening and suitability determinations before accessing SSA systems,
information, or facilities.

Response

We agree. Our Information Technology Support Services Contract, the successor of the Agency-
wide Support Services Contract, requires us to pre-screen all contractors before working on a
contract.

Recommendation 2

Continue performing periodic suitability determinations, as appropriate.

Response

We agree. Once the Office of Personnel Management issues guidance on Executive Order
13488 Granting Reciprocity on Excepted Service and Federal Contractor Employee Fitness and
Reinvestigating Individuals in Positions of Public Trust, we will implement the five-year review
policy.




                                               E-2
Recommendation 3

Ensure contractor personnel (including subcontractors) receive the appropriate suitability
determinations even for individuals previously cleared under another contract.

Response

We agree.

Recommendation 4

Terminate contractor personnel’s (including subcontractors) systems’ access timely and in
accordance with policies and procedures.

Response

We agree.

Recommendation 5

Ensure compliance with Cost Accounting Standards (CAS) and include CAS clauses in future
contracts, as appropriate.

Response

We agree. We note that because the Federal Acquisition Regulation changed subsequent to the
award of the Lockheed Martin contract, CAS standards are not applicable to this contract.




                                               E-3
                                                                          Appendix F

OIG Contacts
   Brian Karpe, Director, Information Technology Audit Division

   Grace Chi, Audit Manager

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff Assistant at
(410) 965-4518. Refer to Common Identification Number A-14-10-11004.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
